f

H

ru

: -1

90-774'?'
V_y
IN THE SUPREME COURT OF THE UNITED STATES

ANTHONY A. PATEL,

) U.S. Supreme Court Case
)

\-i

Supreme Court, U.S.
FILED

N£fR°| 2021
OFFICE OF THE CLERK

Plaintiff and Appellant,

)

vs.

) United States Court of Appeals for the
) Ninth Circuit Case: No. 20-55241
)

CHARLES ROBINSON; et al,

)

U.S. District Court for the Central
) District of California, Case Number:
) 2:19-cv-02851-DOC (DFM)
)

Defendants and Appellees.

On Petition for a Writ of Certiorari to
The U.S. Court of Appeals for The Ninth Circuit
Denial of panel rehearing and en banc review
(dated: November 3, 2020)

PETITION FOR WRIT OF CERTIORARI

Anthony A. Patel
553 N. Pacific Coast Hwy.,
Suite B-522
Redondo Beach, CA 90277
Phone: (424) 350-0123
Fax: (310) 943-3829
Email:tony@tonypatel.com
Plaintiff and Appellant
In Propria Persona

RECEIVED
APR - 7 2021
i
Petition for Writ Certiorari

gasgaisg-sg;

QUESTIONS PRESENTED FOR REVIEW
1.

Does Article III of the U.S. Constitution belong to the

legal profession or to the American people?
2.

Do Americans still have the inherent and unalienable

rights to life, liberty and the pursuit of happiness?
3.

Are lawyers and judges in the jurisdiction of the

Ninth Circuit permitted to escape the self-evident truths that
underpin our entire society since July 4, 1776?
4.

May the bar association of a state (such as California)

discriminate against a United States citizen on the basis of
his/her peaceful political views and civic beliefs?
5.

Do the federal civil rights laws protect the rights of

minorities in America to respect 46 presidential administrations?
6.

May lawyers and judges in the jurisdiction of the 9th

Circuit refuse to understand the world since Sept. 11, 2001?
7.

Is volunteering to perform public service for U.S.

military and troops inconsistent with moral character or fitness
required to function as a member of the U.S. legal profession?
8.

How long will the United States Supreme Court

permit the Ninth Circuit to presume that judges and lawyers
know the law better than the governed citizens themselves?
9.

Is it a mistake for the next-generation of Americans

to waste their time and efforts in public service of their Nation?
10.

Will Americans suffer for Posterity because their

legal system mistakes mental intellect for mental illness?
11.

How should the United Nations discipline lawyers,

judges and state actors who violate an individual’s human rights?
2
Petition for Writ Certiorari

LIST OF PARTIES
Plaintiff and Appellant
ANTHONY A. PATEL, individual

Defendants-Appellees (parties appearing in district court and not
voluntarily dismissed heretofore by plaintiff)
Public Entities:
State Bar of California; Regents of the University of California

Quasi-Public Entity:
California Democratic Party

Private Entities:
Callahan, Thompson, Sherman & Caudill, LLP; Cole Pedroza
LLP; Kendall Brill & Kelly LLP; Lewis, Brisbois, Bisgaard &
Smith LLP; Manatt Phelps & Phillips LLP; Maranga
Morgenstern; MCLA Psychiatric Group; Meyers Nave Riback
Silver & Wilson PLC; and Munger, Tolies & Olson LLP.

Individuals:
Charles Robinson; George Kieffer; John C. Mazziotta; Janet
Napolitano; Amy Blum; Jane Boubelik; John Perez and Louise
Nelson.

3
Petition for Writ Certiorari

CORPORATE DISCLOSURE STATEMENT
I, Anthony A. Patel, do hereby certify that, to my
knowledge, there are no publicly-held companies or corporations
as interested entities or persons to list in this Statement, except
for the parties in this case.

DATED: April 1, 2021
Anthony A. Patel
Plaintiff and Appellant
In Pro Per

4
Petition for Writ Certiorari

LIST OF PROCEEDINGS

Anthony A. Patel vs. Charles Robinson et al., United States
Court of Appeals for the Ninth Circuit, Case Number: 20-55241.
Date of Entry of Order Denying Petition for Rehearing and
for Rehearing and Review En Banc: November 3, 2020.
Date of Entry of Order Summarily Affirming Judgment of
the District Court: June 26, 2020.

Anthony A. Patel vs. Charles Robinson et al., United States
District Court for the Central District of California, Docket Case
Number: 2:19-cv-02851-DOC (DFM).
Date of the Entry of District Court’s Judgment per Order
accepting the Report and Recommendation of the United States
Magistrate Judge, and the Date of the Appealable Order or
Judgment in this case: January 31, 2020.
Date of Entry of District Court’s Orders Dismissing All
Claims in Civil Case (With Prejudice) pursuant to the Report and
Recommendation of United States Magistrate Judge: January 31,
2020.
Date of the subject Report and Recommendation of United
States Magistrate Judge in this proceeding: January 9, 2020.

5

Petition for Writ Certiorari

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

2

LIST OF PARTIES

3

CORPORATE DISCLOSURE STATEMENT

4

LIST OF PROCEEDINGS

5

TABLE OF CONTENTS

6

TABLE OF AUTHORITIES

7

JURISDICTIONAL STATEMENT

8

LEGAL ISSUES IN THIS CASE

9

STATEMENT OF FACTS

10

STATEMENT OF CASE

11

REASONS IN SUPPORT OF WRIT

12

ARGUMENT

13

CONCLUSION

15

APPENDIX:
Order of U.S. Court of Appeals for the Ninth Circuit
(November 3, 2020)
Order of U.S. Court of Appeals for the Ninth Circuit
(June 26, 2020)
Judgment of the U.S. District Court (Central District of
California) (January 31, 2020)
Order of the U.S. District Court (Central District of California)
(January 31, 2020)
Report and Recommendation of United States Magistrate Judge
(January 9, 2020)

6
Petition for Writ Certiorari

TABLE OF AUTHORITIES
Page
Case Law
Eclectic v. Marcus Millichap, 751 F.3d 990 (9th Cir. 2014)

13-14

Franceschi v. Schwartz, 57 F.3d 828 (9th Cir. 1995)

13-14

Marbury v. Madison, 5 U.S. 137 (1803)

15

Naffe v. Frey, 789 F.3d 1030 (9th Cir. 2015)

13-14

Olsen v. Idaho State Medicine, 363 F.3d 916 (9th Cir. 2004) 13-14
Simmons v. Sacramento, 318 F.3d 1156 (9th Cir. 2003)

13-14

United States v. Hooton, 693 F.2d 857 (9th Cir. 1982)

9

Zucco Partners v. Digimarc, 552 F.3d 981 (9th Cir. 2009)

13-14

Rules of The United States Supreme Court
Rule 10

13

Rule 12

13

Statutory Law
42 U.S.C. § 1983

9

42 U.S.C. § 1985

9

Constitutions and Treatises
U.S. Declaration of Independence

passim

United States Constitution

passim

Articles I, II and III

passim

Bill of Rights (Amendments I to X)

passim

Eleventh Amendment

13

Fourteenth Amendment

passim

Governing International Legal Principles
Universal Declaration of Human Rights

9

United Nations Charter

9
7

Petition for Writ Certiorari

JURISDICTIONAL STATEMENT
This petition for certiorari stems from a case in a federal
appeals court (Ninth Circuit). The Court of Appeals denied
petition for rehearing and en banc review on November 3, 2020
(the original disposition order was entered June 26, 2020 and
affirmed the lower U.S. district court). Hence, the jurisdiction of
the U.S. Supreme Court is proper.
Under this Court’s current orders during the Covid-19
pandemic, the deadline to file this instant petition for a writ of
certiorari is 150 days. This certiorari request comes directly from
denial of the rehearing and denial of en banc review of the
highest federal appeals court on November 3, 2020. Thus, the
Supreme Court’s jurisdiction is customary.
The underlying trial court matter in the U.S. district court
is based upon federal civil rights violations and RICO claims,
both of which are actionable in federal district court. Subject
matter jurisdiction for this case arose in a federal tribunal as did
the appeal to the federal appeals court (the Ninth Circuit).
The district court case arose from a conspiracy of California
lawyers, the California bar association, the California Democratic
Party and California state government agencies to obstruct
Plaintiffs career. Defendants use false mental health records to
block Plaintiffs livelihood and productivity. Defendants cause
Plaintiff to suffer during the pandemic because he was interested
in public service. Defendants maintain barricades to Plaintiffs
ability to succeed. Defendants continue to increase the trillions of
dollars of national damage and the Nation’s 600,000 death toll.
8
Petition for Writ Certiorari

LEGAL ISSUES IN THIS CASE
The legal issue in this case relates to Defendants, including
the State Bar of California and California Democratic Party,
conspiring with lawyers and judges in California to use a false
mental health misdiagnosis to hamper Plaintiff s career. The goal
of these Defendants is to exaggerate the pain of the pandemic
and cause more suffering and harm to Americans in order to
maintain their entitled grip on political power. This case thus
answers the simple question from both the left and the right:
“what does it mean to be an American?” — the answer comes from
the American people themselves, not from a legal profession
which fails to accurately apply the law and puts the interests of
bar associations first and the people of this great Nation last.
Plaintiff accurately understands the law and applies legal
analysis and judgment to facts based on the voters themselves.
Lawyers and judges in California discriminate against Plaintiff.
The principal legal issues in this case include the following:
United States v. Hooton, 693 F.2d 857, 858 (9th Cir. 1982).
Federal civil rights: 42 U.S.C. § 1983 and 42 U.S.C. § 1985.
Fourteenth Amendment to the U.S. Constitution.
Bill of Rights to the U.S. Constitution.
Due Process & Equal Protection Clauses of Constitution.
Declaration of Independence and Preamble to Constitution.
Inherent power of Articles I and II of the U.S. Constitution.
Supremacy Clause under the U.S. Constitution.
Universal Declaration of Human Rights (UDHR).
United Nations Charter (1945).
9
Petition for Writ Certiorari

STATEMENT OF FACTS
Appellant Anthony A. Patel (“Patel”) complained in federal
court of discrimination and unfair treatment by state actors and
conspiring Defendants (California law firms, state agencies and
judges). At issue is the State Bar of California teaming up with
the California Democrat Party (and University of California
Hospital) to destroy Patel’s career and productivity. Defendants
violate Patel’s rights because he is an American of Asian descent
concerned about the 600,000 dead Americans and trillions of
dollars of U.S. damage during this mass destruction pandemic.
The basic facts of this case are not in dispute: Patel
finished college three years early, went to Berkeley and Harvard
for law school, and was the youngest member of his graduating
class in 1999. He was admitted to the State Bar of California.
During 2003, Patel took some time to serve as a military
volunteer in New York at the Red Cross. Years later, in 2013,
this public service interest was misdiagnosed as mental illness by
the State of California because Patel wanted to run for elected
office. Thus, unable to run for elected office, Patel left the State
Bar of California for a couple years to volunteer to serve our
troops as a United Service Organizations (USO) volunteer in
2017-2018. He became admitted to the State Bar of Nevada.
Later, upon return to California, the State Bar of California
and conspiring Defendants blocked Patel’s readmission to legal
practice. The State Bar of California and conspiring Defendants
are a threat to America’s fundamental values since July 4, 1776.
Any ruling for these Defendants condemns the American people.
10
Petition for Writ Certiorari

STATEMENT OF CASE
In case 2:19-cv-02851-DOC (DFM), Patel sued the State
Bar of California and several conspiring Defendants which
wrongly rely on a false and involuntary mental health
misdiagnosis. These Defendants seek to ruin Patel’s career and
productivity. Hence, Patel complained in federal courts in 2019.
The district court and the federal court of appeals then
punished Patel in 2019 and 2020 for trying to be successful and
productive. With the election year of 2020 at hand and Americans
suffering in this historical pandemic of epic mass destruction,
Patel’s desires to serve the public interest and his fellow citizens
were translated by federal judges as causus belli for him to suffer.
The district courts in California and the federal courts in
the jurisdiction of the Ninth Circuit are as mistaken as the Soviet
Union in the 1990s. These courts presume that success of slower
Americans is dependent on government and the legal system
forcing capable individuals such as Patel to fail. This idea
espoused by federal courts in the jurisdiction of the 9th Circuit is
as un-American as it is inimical to human intellect and common
sense. These federal courts attempt to turn the universe upside
down for the past ~15 billion years through judicial fiat. As this
Supreme Court is painfully aware during the course of the past
18 months, human judges do not write the laws of this universe.
However, judges on earth can certainly make things worse
and painful for all human beings by misunderstanding reality
(e.g. such as giving any form of deference or respect whatsoever
to any judge of record in the Ninth Circuit on November 3, 2020).
11
Petition for Writ Certiorari

REASONS IN SUPPORT OF WRIT
There is no relief that this Supreme Court can grant which
will “make-whole” the 600,000 or more Americans who will perish
in this pandemic. Nor can the U.S. Supreme Court remedy the
enormous financial, psychological and other long-lasting damage
of the Covid-19 pandemic and the attendant political breakdown
in the United States resulting in two impeachments/acquittals.
And, finally, the Supreme Court cannot bring back 8 or 9
years of Patel’s life that were lost from 2012 to 2021 in hoping to
campaign for elected office and make America better for the
future. The time has passed and the damages upon the Nation
are ones that may endure for decades, due to the mistakes of
lower courts in America who lack intellect or patriotism.
However, the U.S. Supreme Court can grant relief to Patel
as one individual, at least as it concerns the innate ability of each
or any individual American to try and succeed and be productive.
Neither the State Bar of California nor these Defendants see any
value in Patel’s service to our military and troops in 2003 due to
wars that would later severely divide America. Nor can
Defendants see value in 2017-2018 to that same service in
advance of America’s suffering in this political breakdown and
Covid-19 pandemic. In fact, Defendants actually view public
service as threats to their established business models and crony
bar associations. The brazen self-serving interests of the
Defendants pits them against the Nation. Left unchecked, these
Defendants are capable of destroying America’s rule of law faster
than atomic-grade nuclear weapons launched by foreign powers.
12
Petition for Writ Certiorari

ARGUMENT
Appellant requests this Court to grant certiorari because
the issues are of substantial importance. Supreme Court Rules 10
and 12. This writ concerns the basic question of to whom does
Article III of the U.S. Constitution belong: the legal profession (as
per lower courts and the Defendants in this case) or the American
people (as per Congress and the Executive Branch of U.S.
Government. Since ultimately the framers of the Constitution
vested in this Supreme Court the power to decide these issues of
separation of powers, this writ answers the fundamental query.
Despite the unwillingness of lower courts to agree with the
maxim true in this nation since July 4, 1776, Americans still
have the inherent and unalienable rights to life, liberty and the
pursuit of happiness. Naffe v. Frey, 789 F.3d 1030, 1035-36 (9th
Cir. 2015). Patel has alleged facts that plausibly suggest that he
cannot practice his profession nor work free from doubt about his
mental condition due to his desire to serve our nation and public.
The State Bar of California, as a quasi-public entity, does
not have carte blanche to violate the civil rights of U.S. citizens
under color of State law. Franceschi v. Schwartz, 57 F.3d 828 (9th
Cir. 1995). Such an expansive reading of the 11th Amendment is
inconsistent with the prior ten amendments and the Bill of
Rights to the U.S. Constitution. Moreover, fundamental notions
of due process and equal protection are eviscerated if State Bar
employees conspire with State agencies and law firms in concert
with judges to violate the rights of individual Americans. Olsen v.
Idaho State Medicine, 363 F.3d 916 (9th Cir. 2004).
13
Petition for Writ Certiorari

Lower courts concluded that federal civil rights laws do not
protect the rights of minorities in America to pay respects to the
46 presidential administrations since our Constitution came into
force. The position of lower federal courts is patently absurd.
Simmons v. Sacramento, 318 F.3d 1156 (9th Cir. 2003). These
lower courts misunderstand the world in which Americans live
since Sept. 11, 2001 - one in which Articles I and II of the
Constitution are equally as important as lawyers and judges.
Defendants continue to punish and harm Patel for choosing
to spend the three years that he finished early from law school in
the 1990s as a teenager in the public service of our troops and
military in 2003 and 2017-2018. These Defendants meet the legal
definition of RICO by impeding the lawful efficacy of Articles I
and II of the U.S. Constitution and causing damages to Patel for
his complying with Articles I and II of the Constitution. Eclectic
Props. E, LLC v. Marcus & Millichap Co., 751 F.3d 990, 997 (9th
Cir. 2014). In this case, the operative pleading contains adequate
allegations, but lower courts never bothered to construe the
complaint with inferences in Patel’s favor as the pleader. Zucco
Partners v. Digimarc, 552 F.3d 981 (9th Cir. 2009). Rather, all
inferences were made against Patel and his rights violated.
The Supreme Court is the final place to resolve these issues
and this High Court must exercise its discretion and jurisdiction
over lawyers and judges. The American people have already
suffered enough during 2019 and 2020 for the mistakes of their
system. Individuals now deserve a chance in 2021 to be
productive, succeed and achieve to the best of his/her abilities.
14
Petition for Writ Certiorari

CONCLUSION
Our legal system is premised on the fact that judges will
apply the laws fairly and correctly for the benefit of the American
people, not merely lawyers, judges and their legal profession. The
hallmark of America’s entire constitutional system are beliefs in
liberty, self-government, personal responsibility, freedom and
individual rights. For lawyers and judges to now reverse this
system to serve themselves and other special interests operates
as an attack upon America from the inside outward.
This writ petition asks the U.S. Supreme Court for a
remedy: to return the American government and the U.S. legal
system to the American people. Aristocratic judges making up
laws without checks-and-balances is inconsistent with our
republic and the democracy that our Constitution safeguards.
The power of this Supreme Court derives from competence.
Marbury v. Madison, 5 U.S. 137 (1803). Our entire history of 245
years to reach a more perfect Union is based on mental intellect,
not mental illness per the University of California. The strength
of our Nation comes from the choices of the American people, not
from bar associations per the State Bar of California.
Our nation suffered for the past 18 months like never in
245 years. In the endless darkness which haunts America in
2021, the U.S. Supreme Court is a point of light which reaffirms
America’s most basic and self-evident truths since July 4, 1776.
DATED: April 1, 2021
2—---Anthony A. Patel
Plaintiff and Appellant
In Pro Per
15
Petition for Writ Certiorari

Case 2:19-cv-02851-DOC-DFM Document 256 Filed 06/26/20 Page 1 of 1 PagelD#:5850

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUN 26 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ANTHONY A. PATEL,
Plaintiff-Appellant,
v.

No.

20-55241

D.C. No.
2:19-cv-02851 -DOC-DFM
Central District of California,
Los Angeles

CHARLES ROBINSON; et al.,
ORDER
Defendants-Appellees,

Before: GRABER, WARDLAW, and R. NELSON, Circuit Judges.
A review of the record, appellees’ motions for summary affirmance, and
appellant’s response indicates that the questions raised in this appeal are so
insubstantial as not to require further argument. See United States v. Hooton, 693
F.2d 857, 858 (9th Cir. 1982) (stating standard). Accordingly, appellees’ motions
for summary affirmance (Docket Entry No. 49 and 55) is granted.
All other pending motions are denied as moot.
AFFIRMED.

KWH 19-/MOATT

\

Case: 20-55241, 11/03/2020, ID: 11880097, DktEntry: 87, Page 1 of 2

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

NOV 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ANTHONY A. PATEL,
Plaintiff-Appellant,
v.

No.

20-55241

D.C. No.
2:19-cv-02851 -DOC-DFM
Central District of California,
Los Angeles

CHARLES ROBINSON; et al.,
ORDER
Defendants-Appellees,
KJAR MCKENNA AND STOCKALPER
LLP; et al.,
Defendants-Appellees,
DOES, 1-10, inclusive; et al.,
Defendants-Appellees,
and
LEAH WILSON,
Defendant,
THE MALONEY FIRM APC,
Defendant.
Before: GRABER, WARDLAW, and R. NELSON, Circuit Judges.
Appellant’s motion to file a late petition for panel rehearing and petition for
rehearing en banc (Docket Entry No. 82) is granted.

KWH 19-/MOATT

Case: 20-55241, 11/03/2020, ID: 11880097, DktEntry: 87, Page 2 of 2

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Appellant’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 81) are denied.
Appellant’s motions to disqualify (Docket Entry Nos. 84 ad 85) are denied.
All other pending motion are denied as moot.
No further filings will be entertained in this closed case.

KWH 19-/MOATT

2

20-55241

Order of U.S. Court of Appeals for
9th Circuit
(June 26, 2020)

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Judgment of U.S. District Court for
the Central District of California
(January 31, 2020)

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Case 2:19-cv-02851-DOC-DFM Document 251 Filed 01/31/20 Page 1 of 1 PagelD#:5827

JS-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

ANTHONY A. PATEL,
Plaintiff,

Case No. CV 19-2851-DOC (DFM)
JUDGMENT

v.
CHARLES ROBINSON et al.,
Defendants.

Pursuant to the Court’s Order Accepting the Report and
Recommendation of United States Magistrate Judge, IT IS ADJUDGED that
the First Amended Consolidated Complaint and entire action is dismissed with
prejudice for failure to state a claim upon which relief can be granted.

Date: January 31, 2020

d & (dcttAJ
DAVID O. CARTER
United States District Judge

Order Accepting Report and
Recommendation of United States
Magistrate Judge of U.S. District
Court for the Central District of
California
(January 31, 2020)

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Case 2:19-cv-02851-DOC-DFM Document 250 Filed 01/31/20 Page 1 of 2 PagelD#:5825

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

ANTHONY A. PATEL,
Plaintiff,
v.

Case No. CV 19-2851-DOC (DFM)
Order Accepting Report and
Recommendation of United States
Magistrate Judge

CHARLES ROBINSON et al.
Defendants.
Pursuant to 28 U.S.C. § 636, the Court has reviewed the pleadings, the
records on file, and the Report and Recommendation of the United States
Magistrate Judge. Plaintiff has filed Objections, and the Court has engaged in a
de novo review of those portions of the Report and Recommendation to which
Plaintiff has objected. The Court accepts the findings and recommendations of
the Magistrate Judge.
///
///
///
///
///
///

Case 2:19-cv-02851-DOC-DFM Document 250 Filed 01/31/20 Page 2 of 2 PagelD#:5826

IT IS THEREFORE ORDERED that Plaintiffs First Amended
Consolidated Complaint (Dkt. 219) is dismissed with prejudice for failure to
state a claim upon which relief can be granted.
IT IS FURTHER ORDERED that Judgment shall be entered dismissing
the action with prejudice.

:d & (ZodiAj

Date: January 31, 2020

DAVID O. CARTER
United States District Judge

2

Report and Recommendation of
United States Magistrate Judge of
U.S. District Court for the Central
District of California
(January 9, 2020)

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Case 2:19-cv-02851-DOC-DFM Document 239 Filed 01/09/20 Page 1 of 4 Page ID #:5636

o
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

ANTHONY A. PATEL

No. CV 19-02851-DOC (DFM)

Plaintiff,

Report and Recommendation of United
States Magistrate Judge

v.

CHARLES ROBINSON et al.
Defendants.

This Report and Recommendation is submitted to the assigned United
States District Judge, under 28 U.S.C. § 636 and General Order 05-07 of the
United States District Court for the Central District of California.
I*

INTRODUCTION

On October 11, 2019, the Court issued a Report and Recommendation
(“R&R”), recommending that Plaintiffs Consolidated Complaint be dismissed
in part with leave to amend and in part without leave to amend. See Dkt. 197.
On October 30, the District Judge accepted the R&R. See Dkt. 218.
On November 27, 2019, Plaintiff filed a First Amended Consolidated
Complaint (“FACC”). See Dkt. 219. On December 2, the Court issued an
Order to Show Cause (“OSC”) why the FACC should not be dismissed for
failure to state a claim upon which relief can be granted. See Dkt. 222. The
Court noted that although improved, the FACC suffered from several of the

Case 2:19-cv-02851-DOC-DFM Document 239 Filed 01/09/20 Page 2 of 4 PagelD#:5637

same substantive deficiencies set out in the Court’s prior dismissal order. See
id. On December 30, Plaintiff responded to the Court’s OSC. See Dkt. 233
(“Response”). Plaintiffs Response mostly reiterates his views of American
politics but does little to support the FACC’s claims of unlawful conduct.
II.

DISCUSSION

The FACC alleges that in June 2013, Plaintiff “was deceived by UCLA
staff and treated as [a] patient against his will and misdiagnosed as suffering a
mental illness.” FACC ^ 8. The “principal basis” for the misdiagnosis were
concerns that Plaintiff “was divorcing his wife, quitting his private sector work
and intent on running for elected office.” Iff In 2019, Plaintiff formally
requested that his “false medical diagnosis” be “remedied,” but no action was
taken. Iff ^ 13-14. The FACC further alleges that various attorneys and law
firms have sought to injure Plaintiff by, for example, forcing him to abandon
his legal and political career. See iff flf 15-23.
Plaintiffs § 1983 claim against UCLA, MCLA Psychiatric Medical
Group, and the UC Regents, Plaintiff has not sufficiently alleged facts
plausibly suggesting that any of these Defendants have deprived Plaintiff of a
right secured by the Constitution and laws of the United States. See Naffe v.
Frey, 789 F.3d 1030, 1035-36 (9th Cir. 2015). Instead, Plaintiffs claim relies
on the belief that he has a federal right to have any inaccuracies in his medical
record correct, a position unsupported by legal authority.
In his Response, Plaintiff faults the Court for ignoring “the damage
created by the State Bar of California which is to deny Patel an ability to
resume entry in the legal profession in California based on this false mental
illness.” Response at 3. But the Court has already dismissed the State Bar of
California based on Eleventh Amendment immunity, a position Plaintiff does
not challenge. See Dkt. 197 at 9 (citing Franceschi v. Schwartz. 57 F.3d 828,
831 (9th Cir. 1995)).
2

Case 2:19-cv-02851-DOC-DFM Document 239 Filed 01/09/20 Page 3 of 4 Page ID #:5638

Plaintiffs § 1983 claim against various law firms and attorneys, Plaintiff
has not alleged facts plausibly suggesting that any of these Defendants have
deprived Plaintiff of a right secured by the Constitution and laws of the United
States, or that their alleged actions were taken under color of state law. See
Simmons v. Sacramento Ctv. Super. Ct.. 318 F.3d 1156, 1161 (9th Cir. 2003).
Plaintiff responds that it is wrong for the Court to “immunize bad judgment as
a right protected for lawyers and judges” while the “better judgment of
individual citizens like Patel is ignored.” Response at 3. Plaintiffs honest belief
that he is right, and others are wrong, does not support a cognizable civil rights
claim.
Plaintiffs § 1985 claim against all Defendants fails because he cannot
state a plausible claim under § 1983. See Olsen v. Idaho State Bd. of Medicine.
363 F.3d 916, 930 (9th Cir. 2004).
Finally, Plaintiffs civil RICO claim against all Defendants fails because
he has not alleged facts plausibly suggesting that any Defendant participated in
(1) the conduct (2) of an enterprise (3) through a pattern (4) of racketeering
activities (5) causing injury to Plaintiff’s business or property. See Eclectic
Props. E, LLC v. Marcus & Millichap Co.. 751 F.3d 990, 997 (9th Cir. 2014).
Plaintiff’s counter, that Defendants have wasted his “time, money, and
abilities,” Response at 5, is not enough.
Plaintiff requests another chance to amend. Dismissal without leave to
amend is appropriate when (1) the plaintiff has already had opportunities to
amend his complaint and (2) further amendment would be futile. See Zucco
Partners. LLC v. Disimarc Corp.. 552 F.3d 981, 1007 (9th Cir. 2009). Here,
the problems set out above were already brought to Plaintiffs attention in the
Court’s order dismissing the Consolidated Complaint, and those deficiencies
were not remedied in the FACC. Moreover, Plaintiffs suggested amendments,
see Response at 6, would not elevate his claims to the level of facial
3

Case 2:19-cv-02851-DOC-DFM Document 239 Filed 01/09/20 Page 4 of 4 PagelD#:5639

plausibility. The Court thus believes that amendment would be futile and
recommends that the FACC be dismissed with prejudice.
in.

RECOMMENDATION

IT THEREFORE IS RECOMMENDED that the District Judge issue
an Order: (1) approving and accepting this Report and Recommendation; (2)
dismissing the FACC with prejudice; and (3) directing that Judgment be
entered accordingly.

Date: January 9, 2020
DOUGLAS F. McCORMICK
United States Magistrate Judge

4

